No. 20-826

In the Supreme Court of the United States
MIKE BROWN, ACTING-WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON PETITION FOR A WRIT OF
CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CORRECTED PROOF OF SERVICE
The undersigned certifies that on December 18, 2020, she e-served the Application to Stay the Mandate of the United States Court of Appeals for the Sixth Circuit
Pending Decision on the State of Michigan’s Petition for a Writ of Certiorari along
with Appendix A through H by e-filing and e-mailing same to the following email
address:
•

Tasha J. Bahal, Tasha.Bahal@wilmerhale.com

The petition and appendix will be mailed on Monday, December 21, 2020 in
an envelope bearing postage fully prepaid, plainly addressed as follows:
Counsel of Record for Respondent:
Tasha J. Bahal, Law Office
60 State Street, 23rd Floor
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com
Respondent:
Ervine Lee Davenport #179762
Kinross Correctional Facility
4533 W. Industrial Park Drive
Kincheloe, MI 49786

______________________________
Holly Gustafson, Legal Secretary

